AUDIT OF MESA COUNTY SHERIFF’S OFFICE
EQUITABLE SHARING PROGRAM ACTIVITIES
    GRAND JUNCTION, COLORADO


       U.S. Department of Justice
     Office of the Inspector General
              Audit Division


      Audit Report GR-60-12-009
              March 2012




      REDACTED – FOR PUBLIC RELEASE
                 AUDIT OF MESA COUNTY SHERIFF’S OFFICE
                 EQUITABLE SHARING PROGRAM ACTIVITIES
                      GRAND JUNCTION, COLORADO

                                EXECUTIVE SUMMARY 1

       The purpose of the Department of Justice (DOJ) asset forfeiture program
is to deter crime by depriving criminals of the profits and proceeds of illegal
activities while enhancing the cooperation between federal, state, and local
law enforcement agencies. State and local law enforcement agencies that
participate in the seizure of property and funds may receive a portion of the
proceeds, or an equitable share of the forfeiture, to use for law enforcement
purposes. The Criminal Division’s Asset Forfeiture and Money Laundering
Section (AFMLS) oversees the DOJ asset forfeiture program.

       The Department of Justice, Office of the Inspector General conducted an
audit of the Mesa County Sheriff’s Office (MCSO) participation in the DOJ asset
forfeiture program during the MCSO’s fiscal years 2009 and 2010. During the
audit period, the MCSO received over $1,872,998 in equitable sharing
proceeds and assets and spent $900,734 in equitable sharing funds. The
audit found that the MCSO primarily spent these monies to enhance and
support law enforcement capabilities of the MCSO and task force member
agencies. 2 However, we found weaknesses with allowability of purchases
made with equitable sharing funds, recordkeeping related to equitable sharing
requests and expenditures, and reconciliation of equitable sharing funds
requested with those received. We identified $64,516 in questioned costs
related to expenditures we consider unallowable under program guidelines and
$22,238 in questioned costs related to expenditures that lacked adequate
supporting documentation. We found one expenditure in the amount of
$8,402 to be both unallowable and unsupported; as a result, total questioned
costs in this audit were reduced accordingly to $78,351.3 This audit provided
the following recommendations to the Criminal Division, which oversees the
use of equitable sharing funds by recipients.

       1
          The Mesa County Sheriff’s Office response to this report contains limited information
that may be protected by the Privacy Act of 1974, 5 U.S.C. § 552(a), may implicate the privacy
rights of identified individuals, or may be law enforcement sensitive. Therefore, the Office of
the Inspector General redacted such portions of the full report response to create this public
version of the report.
       2
           Task force member agencies included the Drug Enforcement Administration (DEA),
City of Palisade Police Department, and Grand Junction Police Department; equitable sharing
committee members included leadership of those agencies as well as the Fruita Police
Department, Colorado State Patrol, and Mesa County District Attorney’s Office.
       3
           Throughout this report, differences in total amounts are due to rounding.
•   Ensure that the MCSO periodically reconciles the equitable sharing funds
    requested and the corresponding amount received.

•   Ensure that the MCSO retains copies of submitted DAG-71 equitable
    sharing request forms.

•   Ensure that the MCSO follows the Guide to verify allowability of
    expenditures.

•   Ensure that the MCSO retains adequate documentation for all equitable
    sharing expenditures.

•   Remedy the $64,516 in questioned costs due to five expenditures that
    were unallowable per the Guide.

•   Remedy the $22,238 in questioned costs as a result of five expenditures
    that lacked adequate supporting documentation.




                                    ii
                                  TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
  DOJ Equitable Sharing Program..................................................................... 1
  Mesa County Sheriff’s Office ......................................................................... 2
  OIG Audit Approach ..................................................................................... 3
FINDINGS AND RECOMMENDATIONS................................................ 4
  Federal Sharing Agreements and Certification Forms ....................................... 4
  Accounting for Equitable Sharing Receipts ...................................................... 6
  Use of Equitable Sharing Funds ..................................................................... 8
  Recommendations ..................................................................................... 12
APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS ............. 13
APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY .............. 14
APPENDIX III - SUMMARY OF TESTED EQUITABLE SHARING
  PURCHASES ................................................................................ 16
APPENDIX IV - MESA COUNTY SHERIFF’S OFFICE’S RESPONSE TO THE
  DRAFT REPORT ........................................................................... 18
APPENDIX V - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARYTO CLOSE THE REPORT ....... 23
                AUDIT OF MESA COUNTY SHERIFF’S OFFICE
                EQUITABLE SHARING PROGRAM ACTIVITIES
                     GRAND JUNCTION, COLORADO

                                  INTRODUCTION

      The Department of Justice (DOJ), Office of the Inspector General (OIG)
audited the monitoring and use of DOJ equitable sharing funds by the Mesa
County Sheriff’s Office (MCSO) in Grand Junction, Colorado. The audit
covered MCSO’s fiscal years (FY) 2009 and 2010, beginning on
January 1, 2009, and ending on December 31, 2010. During that period, the
MCSO received $1,872,998 in proceeds and assets as a participant in the DOJ
equitable sharing program.

DOJ Equitable Sharing Program

        Because asset forfeiture deprives criminals of the profits and proceeds
derived from their illegal activities, it is one of the most powerful tools available
to law enforcement agencies. A key element of the DOJ’s asset forfeiture
initiative is the equitable sharing program, whereby the DOJ and its
components share a portion of federally forfeited cash, property, and proceeds
with state and local law enforcement agencies. 1

      State and local law enforcement agencies receive equitable sharing
funds by participating directly with DOJ agencies on investigations that lead to
the seizure and forfeiture of property. Once an investigation is completed and
the seized assets are forfeited, the assisting state and local law enforcement
agencies can request a share of the forfeited assets or a percentage of the
proceeds derived from the sale of forfeited assets. Generally, the degree of a
state or local agency’s direct participation in an investigation determines the
amount or percentage of funds shared with that agency.

      Three DOJ components work together to administer the equitable
sharing program – the U.S. Marshals Service (USMS), the Justice Management
Division’s Asset Forfeiture Management Staff (AFMS), and the Criminal
Division’s Asset Forfeiture and Money Laundering Section (AFMLS). The
USMS is responsible for transferring asset forfeiture funds from the DOJ to the
receiving state or local agency. The AFMS manages the Consolidated Asset
Tracking System (CATS), a database used to track federally seized assets
throughout the forfeiture life-cycle. Finally, AFMLS tracks membership of
state and local participants, updates the equitable sharing program rules and

      1
         Federal asset forfeiture programs are also administered by the U.S. Department of
the Treasury.


                                            1
policies, and monitors the allocation and use of equitably shared funds.

       To request a share of seized assets, a state or local law enforcement
agency must first become a member of the DOJ equitable sharing program.
Agencies can become members of the program by signing and submitting an
annual equitable sharing agreement and certification form to AFMLS. As part
of each annual agreement, officials of participating agencies certify that they
will use equitable sharing funds for law enforcement purposes.

Mesa County Sheriff’s Office

      Mesa County is located on the western border of Colorado, 250 miles
west of Denver. Mesa County has a population of nearly 148,000 people in a
3,309 square mile region. More than 70 percent of the county is comprised of
public lands controlled by the U.S. Forest Service and Bureau of Land
Management. Grand Junction is the county seat of Mesa County and is the
largest city between Denver and Salt Lake City, Utah.

      Mesa County has experienced an economic downturn in recent years. A
Denver Post article from Thursday, August 11, 2011, cited a U.S. Bureau of
Economic Analysis report when stating "Grand Junction suffered the biggest
decline of personal incomes last year of any metro area in the country." Due
to drops in the oil and gas and construction industries in Mesa County, personal
incomes in Grand Junction fell 0.9 percent in 2010, the largest drop of
366 cities and 1 of only 4 cities that showed a decline in 2010. Nationwide,
personal incomes in all U.S. cities rose 2.9 percent in 2010, with an
average Colorado increase of 2.8 percent.

       The MCSO is a department of Mesa County. The MCSO is a member of
a regional task force with the Drug Enforcement Administration (DEA) and
other local law enforcement agencies. A seven member committee made up
of local law enforcement leadership and a DEA official oversees equitable
sharing for the task force. Requests for expenditures were submitted to the
committee by task force members, and majority approval by the committee
was required for expenditures. Equitable sharing requests were submitted by
a task force officer and receipts were deposited into a bank account held by
MCSO; the MCSO asset forfeiture account served as the clearinghouse for task
force equitable sharing receipts. Because the MCSO maintained accounting
records, documentation of receipts and expenditures, and the bank account for
equitable sharing, and MCSO officials signed and submitted the annual
certifications, we conducted the audit of the MCSO rather than the task force.
As of the audit period, asset forfeitures resulting from task force investigations
were the MCSO’s primary source of DOJ asset forfeiture funds. MCSO also



                                        2
received asset forfeiture funds from the Treasury Department and through
local (non-federal) seizures.

OIG Audit Approach

      We tested compliance with what we considered to be the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated,
we applied the Guide to Equitable Sharing for State and Local Law Enforcement
Agencies (Guide), issued by AFMLS in 2009, as our primary criteria. The
Guide outlines procedures for submitting sharing requests and discusses
proper use and accounting for equitable sharing assets.

      To conduct the audit, we tested the MCSO’s compliance with the
following three aspects of the DOJ equitable sharing program:

  •   Federal Sharing Agreements and Certification Forms to determine
      if these documents were complete and accurate.

  •   Accounting for equitable sharing receipts to determine whether
      standard accounting procedures were used to track equitable sharing
      assets.

  •   Use of equitable sharing funds to determine if equitable sharing cash
      was used for law enforcement purposes.

     See Appendix II for more information on our objectives, scope, and
methodology.




                                     3
                   FINDINGS AND RECOMMENDATIONS

      Our audit found the MCSO submitted federal sharing agreements and
      certification reports on time and adequately recorded receipts and
      expenditures. However, the MCSO did not retain copies of submitted
      equitable sharing requests and did not periodically reconcile equitable
      sharing funds requested with those funds received. MCSO and task
      force officials were not aware of specific Guide requirements. One
      property asset received and in use by MCSO personnel was not recorded
      in inventory. This audit also identified $64,516 in expenditures that
      were not allowable under DOJ equitable sharing guidelines and
      $22,238 in expenditures that lacked adequate supporting
      documentation.

Federal Sharing Agreements and Certification Forms

       The Guide requires that participants submit an annual certification
report (certification) 60 days after the close of the participating agency’s fiscal
year (FY). According to the Guide, the head of the law enforcement agency
and a designated official of the local governing body must sign each
certification. By signing the report, signatories certify their agency’s
compliance with statutes and guidelines that govern the equitable sharing
program. We reviewed MCSO certifications submitted for FYs 2009 and 2010
and found the certifications were complete, submitted timely, and signed by
appropriate officials.

      To verify the total amount of equitable sharing funds received, we
compared the receipts listed on the certifications to the total amount listed as
disbursed on the AFMLS Consolidated Asset Tracking System (CATS) reports.
For the audited period, this comparison showed that the amounts listed in the
MCSO certifications matched the amounts listed in the CATS report for 2009
but did not match for 2010, as shown in Table 1. We determined the
$16,699 difference in 2010 occurred because the certification report for 2010
did not require law enforcement agencies to provide valuation information for
assets received, which had been required in the 2009 certification. However,
on the 2010 certification, MCSO provided a description of the asset that
matched the description of the asset on the CATS report.




                                        4
TABLE 1: RECEIPTS COMPARISON
                          RECEIPTS          DISBURSEMENTS
      YEAR            PER CERTIFICATION    PER CATS REPORT       DIFFERENCE
       2009
       Cash                $839,502            $839,502                   -
      Assets                $40,012             $40,012                   -
    2009 Total             $879,513            $879,513                   -
       2010
       Cash                 $976,786           $976,786                  -
      Assets                       -            $16,699            $16,699
    2010 Total              $976,786           $993,485            $16,699
      Total              $1,856,299         $1,872,998            $16,699
Source: AFMLS and MCSO

       To verify the total expenditures listed on the certification, we analyzed
MCSO accounting records. We noted the total expenditures of $900,734
reported on the accounting records matched the $900,734 in expenditures
listed on the certification, as shown by Table 2.

TABLE 2: EXPENDITURE COMPARISON
                                       EXPENDITURES PER
                   EXPENDITURES        MCSO ACCOUNTING
    YEAR         PER CERTIFICATION         RECORDS               DIFFERENCE
    2009                 $210,785              $210,785                  -
    2010                 $689,948              $689,948                  -
    Total               $900,734              $900,734                   -
Source: AFMLS and MCSO




                                       5
Accounting for Equitable Sharing Receipts

       The Guide requires that law enforcement agencies use standard
accounting procedures to track equitable sharing program receipts.
Participating agencies should maintain a log of all sharing requests that
consecutively number the requests while listing the seizure type, seizure
amount, share amount requested, amount received, and date received for
each request. 2 Since the amount actually received may differ from the
amount initially requested, receiving agencies should periodically update the
log to ensure accurate recordkeeping. The Guide also requires requesting
agencies to maintain copies of DAG-71 equitable sharing request forms. 3

      We reviewed how the MCSO requested and tracked DOJ equitable
sharing receipts. When an asset was seized, an officer serving on the task
force prepared a form requesting a portion of the forfeiture. Each request
form was signed and certified by the officer and a representative from the
Mesa County District Attorney’s Office. To facilitate the request, the task
force officer worked in conjunction with a local DEA official.

       After the requested assets went through legal proceedings and were
forfeited, the USMS disbursed the assets or proceeds from the sale of a
forfeiture to the MCSO. The MCSO received all receipts via Electronic Fund
Transfers (EFT), and MCSO officials were notified by email that funds were
deposited into the MCSO’s equitable sharing bank account.

       Although the MCSO separated the requesting and accounting functions
with regard to its equitable sharing receipts, neither task force officials nor
MCSO personnel retained copies of DAG-71 equitable sharing request forms,
monitored the status of equitable sharing requests, or periodically reconciled
asset forfeiture funds received with funds actually requested. Task force
officials stated they had no knowledge of the Guide requirement to retain
documents. Without retention, monitoring, and periodic reconciliation of
request forms, we believe the MCSO could not ensure that it had received and
accounted for all equitable sharing funds properly. Therefore, we recommend
that the Criminal Division ensure that the MCSO, in accordance with equitable
sharing guidelines: (1) maintains copies of all DAG-71 equitable sharing
request forms submitted; (2) monitors the status of equitable sharing
requests; and (3) periodically reconciles the requests for DOJ asset forfeiture

       2
          Under AFMLS rules in effect during the audit period, a law enforcement agency was
required to submit separate share requests on form number DAG-71, “Application for Transfer
of Federally Forfeited Property” for each shared asset request.
       3
          There was not an electronic filing system for submission of DAG-71 forms in the
scope of this audit; the MCSO submitted all DAG-71s on paper.


                                             6
funds with the EFT receipts to ensure the MCSO receives requested funds and
accurate records are maintained by MCSO.

       From January 2009 through December 2010, the CATS reports recorded
65 equitable sharing receipts totaling $1,872,998 for the MCSO, as shown in
Table 3. Those receipts included five pieces of property that were received
through equitable sharing, all vehicles. We physically verified the existence of
all five vehicles and MCSO officials stated that each was in use by MCSO
personnel; we determined all five vehicles were being used for permissible law
enforcement uses under the Guide. We reviewed MCSO inventory records
and determined that four of the five vehicles were recorded. MCSO officials
provided us an email on September 19, 2011, stating that the fifth vehicle had
not yet been added to inventory records because a receipt for a payment to
release a lien had not yet been received from Mesa County. However, we
noted during fieldwork that the vehicle was being used by MCSO personnel.
Further, our review of MCSO records indicated that the USMS had approved
equitable sharing of the property on November 10, 2010, and the lien payment
had been made with equitable sharing funds on December 31, 2010;
therefore, at the time of the MCSO email, ten months had passed since the
vehicle was received and nine months had passed since the lien was paid,
without the vehicle being recorded in MCSO inventory records.

TABLE 3: MCSO RECEIPTS IN FYs 2009 THROUGH 2010
   MESA COUNTY
   FISCAL YEAR          PROCEEDS           PROPERTY               TOTAL
      2009                $839,502           $40,012              $879,513
      2010                $976,786           $16,699              $993,485
      Total            $1,816,288           $56,711            $1,872,998
Source:   AFMLS and MCSO

      We reconciled the MCSO’s equitable sharing receipts stated in the CATS
report with the receipts in the EFT log and found the receipt amounts matched.
As shown by Table 4, we sampled the five highest receipts from FYs 2009 and
2010, totaling $1,173,132, to ensure these monies were properly deposited
and timely recorded. Our testing determined that the MCSO accurately
recorded its asset forfeiture receipts.




                                       7
TABLE 4: MCSO SAMPLED RECEIPTS IN FYs 2009-2010
                        Date Received           Date Received
                        Per USMS EFT           Per Mesa County
  Sample Count               Log                   Records     Amount Received
       1                 01/29/2009               01/29/2009        $179,076
       2                 06/25/2009               06/25/2009        $271,626
       3                 07/28/2010               07/28/2010         $81,335
       4                 08/26/2010               08/26/2010         $98,708
       5                 10/26/2010               10/26/2010        $542,387
                                                         TOTAL   $1,173,132
Source: USMS and MCSO

Use of Equitable Sharing Funds

      As summarized in Table 5, the Guide outlines categories of allowable and
unallowable uses for equitable sharing funds.

TABLE 5: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES FOR
         EQUITABLE SHARING FUNDS
             ALLOWABLE USES                               UNALLOWABLE USES
Activities calculated to enhance future        Salaries for existing positions
investigations
Salaries paid for first-year law               Non-law enforcement use of tangible
enforcement personnel and overtime for         property and expenses
officers and investigators
Law enforcement training, equipment,           Non-official, improper, or illegal uses
travel and transportation, awards and
memorials, and operations support
Law enforcement and detention facilities
                                       Education related costs, unless
                                       necessary to performance of official law
                                       enforcement duties
Drug and gang education and awareness Extravagant expenses
program operation
Asset accounting and tracking expenses Construction, improvement, or
                                       expansion of facilities without prior
                                       approval by AFMLS
Support of eligible community based    Cash transfers or donations to
programs through direct purchase of    community-based programs
supplies, equipment, and/or services
Source: AFMLS

       According to the Guide, participating agencies should generally use
equitable sharing funds for law enforcement purposes. Under certain
circumstances, however, up to 15 percent of equitable sharing revenues may
be used to pay for drug abuse rehabilitation, drug and crime prevention
efforts, housing and job skills programs, or other nonprofit community-based


                                           8
activities. However, the Guide requires that the participating agency directly
purchase supplies, equipment, and/or services for eligible programs, or
reimburse such programs for eligible expenditures with a valid, itemized
receipt; cash transfers to community-based programs are not permitted.

      As stated previously, MCSO was a member of a regional task force with
the DEA and other local law enforcement agencies, and the MCSO equitable
sharing account acted as a clearinghouse for task force equitable sharing
receipts. A seven member committee of task force agency leadership decided
how to use asset forfeiture funds, based on an application and approval
process. For each proposed expenditure, the recipient agency provided an
application to the task force committee. The committee met monthly to
review applications and, through majority vote, approved or denied the
application or requested more information. While the committee considered
each application prior to approval of expenditures, MCSO officials stated that
task force committee members were not aware of specific guidelines for
allowability of equitable sharing expenditures and did not refer to the Guide
when deciding on approval of expenditures.

       The MCSO spent a total of $900,734 in equitable sharing funds during
the audit period to obtain items including covert equipment for undercover
officers, SWAT equipment, vehicles, training equipment, Tasers, radio
equipment, training and conferences, and firearms.

      To assess whether expenditures were allowable under equitable sharing
guidelines, we judgmentally sampled 34 expenditures totaling $759,030.4
The sample included high-dollar expenditures and expenditures for items we
selected based on potential for impermissible or improper use.

      Using our sample, we reviewed inventory records for tangible items
purchased with equitable sharing funds. Because equitable sharing funds
were used to purchase items for task force members, we reviewed inventory
records related to the sample expenditures for MCSO and the Grand Junction
Police Department. For both agencies, we found items purchased were
appropriately recorded as inventory, with the exception of a hostage
negotiator phone that was purchased for $5,000 and used by the MCSO SWAT
team. We determined the expenditure for the phone was properly recorded in
MCSO accounting records, but MCSO officials were unable to provide us with
the inventory record for this piece of equipment. We also requested and
received property confirmation letters for radios purchased for the City of
Fruita Police Department, Grand Junction Police Department, and Palisade

      4
          Appendix III includes our sample of items MCSO purchased with equitable sharing
funds during the audit period.


                                            9
Police Department. Our review of inventory records for the sample did not
reveal any other exceptions.

      However, our review of MCSO equitable sharing expenditures identified
six expenditures that we do not consider to be permissible law enforcement
uses as defined by the Guide. 5 The questionable expenditures include a 2009
expenditure of $2,797 for courtroom projectors, $8,402 for attorney
attendance at a 2009 Colorado District Attorney Council conference, a 2010
expenditure of $4,970 for office scanner equipment, 6 and $550 for grand jury
pay in 2010 for the Mesa County District Attorney’s Office; a 2010 donation of
$48,000 to a community-based nonprofit organization for improvements to
the organization’s facility; and a $4,767 expenditure in 2010 for an
anti-bullying program at a local school. Because these expenditures were not
related to permissible law enforcement uses, we do not consider the costs to
be allowable equitable sharing program expenses and we question the total
amount of $64,516 as unallowable under equitable sharing guidelines. We
recommend that the Criminal Division remedy the $64,516 associated with
these unallowable expenditures.

      In our review of the 34 sampled equitable sharing expenditures, we
found the MCSO generally maintained documents that adequately supported
each tested transaction; however, our review of MCSO equitable sharing
expenditures identified five expenditures that did not have adequate
supporting documentation. The unsupported expenditures include $8,402 for
the Colorado District Attorney Council conference attended in 2009 by
20 attorneys from the Mesa County District Attorney’s Office, which included
lodging reservations made in one name for 24 adults in 16 bedrooms at six
condos at Keystone ski resort, but was missing an attendee roster and
conference registration forms, and was also found to be an unallowable
expenditure above; a 2009 expenditure for $1,500 that included $292 in
unsupported per diem expenses for an exchange program with Romanian law
enforcement officers; $5,664 and $5,879 for law enforcement academy
scholarships awarded in 2010, in which MCSO officials stated the application
forms had been shredded by the academy, preventing us from identifying the
scholarship recipients; and $2,000 for a 2010 law enforcement conference in
which MCSO officials stated the attendee roster and registration forms had
been destroyed, which prevented us from verifying the expenditure. These
unsupported expenditures led us to question the amount of $22,238 as
unsupported. Therefore, we recommend that the Criminal Division remedy
the $22,238 in questioned costs related to expenditures that lacked adequate
supporting documentation.

     5
         Appendix I lists unallowable and unsupported expenditures.



                                          10
       We note that the unsupported expenditure for attorney training for the
Mesa County District Attorney’s Office, in the amount of $8,402, was also
found to be unallowable under equitable sharing guidelines. Therefore, while
unallowable expenditures totaled $64,516 and unsupported expenditures
totaled $22,238, total questioned costs in this audit were $78,351, as shown in
Appendix I.




                                      11
Recommendations

We recommend that the Criminal Division:

  1. Ensure the MCSO periodically reconciles the equitable sharing funds
     requested and the corresponding amount received.

  2. Ensure that the MCSO retains copies of submitted DAG-71 equitable
     sharing request forms.

  3. Ensure the MCSO follows the Guide to verify allowability of expenditures.

  4. Ensure that the MCSO retains complete documentation to support all
     equitable sharing expenditures.

  5. Remedy the $64,516 in questioned costs due to five expenditures that
     were unallowable per the Guide.

  6. Remedy the $22,238 in questioned costs due to five unsupported
     expenditures.




                                     12
                                                                             APPENDIX I

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

 QUESTIONED COSTS: 7                                         AMOUNT              PAGE
 Unallowable Expenditures:

    Media equipment purchased for courtroom use by             $2,797              10
    the Mesa County District Attorney’s Office

    Conference attendance for attorneys for the Mesa           $8,402              10
    County District Attorney’s Office (as noted below,
    also an unsupported expenditure)

    Grand jury pay for the Mesa County District                  $550              10
    Attorney’s Office

    Donation to community-based nonprofit                     $48,000              10
    organization for building improvements

    Anti-bullying program at local school district             $4,767              10

 Unsupported Expenditures:

    Conference attendance for attorneys for the Mesa           $8,402              10
    County District Attorney’s Office (as noted above,
    also an unallowable expenditure)

    Law enforcement exchange with Romanian law                   $292              10
    enforcement officers

    Law enforcement academy scholarship                        $5,664              10

    Law enforcement academy scholarship                        $5,879              10

    Law enforcement conference                                 $2,000              10

 Total Questioned Costs: 8                                   $78,351

 TOTAL DOLLAR RELATED FINDINGS:                              $78,351




       7
          Questioned Costs are monies spent that, at the time of the audit, do not comply with
legal requirements, or are unsupported, unnecessary, or unreasonable. They can be
recoverable or non-recoverable.
       8
           The unsupported expenditure for conference attendance for the Mesa County
District Attorney’s Office, in the amount of $8,402, was also found to be unallowable under
equitable sharing guidelines. Therefore, while unallowable expenditures totaled $64,516 and
unsupported expenditures totaled $22,238, total questioned costs in this audit were $78,351.


                                              13
                                                               APPENDIX II

                OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate, evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Objective

      The objective of the audit was to assess whether the Mesa County
Sheriff’s Office (MCSO) accounted for equitable sharing funds properly and
used such revenues for allowable purposes defined by applicable guidelines.
We tested compliance with what we considered were the most important
conditions of the Department of Justice’s (DOJ) equitable sharing program.
We reviewed laws, regulations, and guidelines governing the accounting for
and use of DOJ equitable sharing receipts, including:

   •   A Guide to Equitable Sharing for State and Local Law Enforcement
       Agencies, dated April 2009 and

   •   Circular No. A-133, setting standards for audits of States, local
       governments, and non-profit organizations expending Federal awards,
       dated June 27, 2003.

     Unless otherwise stated in our report, the criteria used during the audit
were contained in these documents.

Scope and Methodology

      Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the MCSO during the agency’s fiscal years (FY) 2009 and
2010, covering the period from January 1, 2009, to December 31, 2010. The
U.S. Department of the Treasury administers a similar equitable sharing
program; we determined MCSO separately tracked equitable sharing revenues
received through the Treasury program. Our audit reviewed equitable
sharing revenues received through only the DOJ equitable sharing program.

      During FYs 2009 and 2010, MCSO had 65 receipts totaling $1,872,998.
We tested a judgmental sample of 5 receipts totaling $1,173,132. During the
audited period, there were 66 expenditures totaling $900,734. We selected a


                                     14
judgmental sample of 34 expenditures for testing, totaling $759,030. A
judgmental sampling design was applied to obtain broad exposure to
numerous facets of the disbursements reviewed, such as dollar amounts.
This non-statistical sample design does not allow projection of the test results
to all expenditures.

       We performed audit work at the MCSO headquarters in Grand Junction,
Colorado. To accomplish the objectives of the audit, we interviewed MCSO
officials and examined records, related revenues, and equitable sharing
revenues and expenditures. In addition, we relied on computer-generated
data contained in the DOJ Consolidated Asset Tracking System (CATS) for
determining equitably shared revenues and property awarded to the MCSO
during the audit period. We did not establish the reliability of the data
contained in the CATS system as a whole. However, when the data we relied
upon is viewed in context with other available evidence, we believe the
opinions, conclusions, and recommendations included in this report are valid.

       Our audit specifically evaluated MCSO compliance with three essential
equitable sharing guidelines: (1) Federal Sharing Agreements and Annual
Certification Reports, (2) accounting for equitable sharing receipts, and (3) use
of equitable sharing funds. In planning and performing our audit, we
considered internal controls established and used by the MCSO and Mesa
County over DOJ equitable sharing receipts to accomplish our audit objectives.
However, we did not assess the MCSO or Mesa County financial management
system reliability, internal controls, or whether it, as a whole, complied with
laws and regulations.

      Our audit included an evaluation of the MCSO, a unit of Mesa County,
which was included in Single Audit Reports for Mesa County for 2009 and 2010.
The Single Audit Reports were prepared under the provisions of Office of
Management and Budget Circular A-133. We reviewed the independent
auditor’s assessments, which disclosed no control weaknesses or significant
noncompliance issues related specifically to Mesa County or MCSO
management or administration of equitable sharing funds or DOJ grant funds.




                                       15
                                                                   APPENDIX III

       SUMMARY OF TESTED EQUITABLE SHARING PURCHASES

ITEM        EXPENDITURE                          LAW ENFORCEMENT     AMOUNT OF
NO.          DESCRIPTION        PERMISSIBILITY       PURPOSE        EXPENDITURE
         Technology - Court
 1                                   No                N/A                2,797
          Room
 2       Night Vision                Yes            Equipment            35,541
         Peace Officer
 3                                   Yes             Training              500
          Conference
         Scholarship
 4                                   Yes             Training             6,243
          Academy
                                   No, and
 5       DA Training                                   N/A                8,402
                                 unsupported
         CIT Training
 6                                   Yes             Training             8,165
          Program
                                   Yes, but
 7       Exchange Students         partially         Training             1,500
                                 unsupported
8        GPS Units                   Yes            Equipment            17,491
9        CDIA Conference             Yes             Training            13,270
10       Court Service Rifles        Yes            Equipment             4,361
11       Court Service Rifles        Yes            Equipment            11,987
12       Thunderjet Boats            Yes            Equipment            37,399
         Academy                   Yes, but
13                                                   Training             5,664
          Scholarship            unsupported
         WSCC's Energy
14        Improvement                No                N/A               48,000
          Project
         Hostage Negotiator
15                                   Yes            Equipment             5,000
          Phone
         DTR Radio
16                                   Yes            Equipment           100,000
          Conversion
         800 MHZ Radio
17                                   Yes            Equipment           200,000
          Tower
18       Tasers                      Yes            Equipment            61,793
         Leadership, Legal
19        Issues & Ethics            Yes             Training             9,500
          Training
         Honor Guard
20                                   Yes            Equipment             2,501
          Uniforms
                                   Yes, but
21       Post Scholarship                            Training             5,879
                                 unsupported
22       CDIA Conference             Yes             Training            11,460
         DTR Handheld
23        Radios for Palisade        Yes            Equipment            27,256
          & Fruita PD's
24       WCPOA Conference            Yes             Training             1,700
25       Grand Jury Expenses         No                N/A                  550
26       Scanners                    Yes            Equipment             4,970


                                           16
  ITEM        EXPENDITURE                        LAW ENFORCEMENT      AMOUNT OF
  NO.         DESCRIPTION       PERMISSIBILITY       PURPOSE         EXPENDITURE
   27     CDIA Conference            Yes             Training                200
   28     Bomb Vehicle               Yes            Equipment             38,741
          Portable & Mobile
   29                                Yes            Equipment             48,702
           Radios
          Radio Equipment for
   30      Communication             Yes            Equipment             26,757
           Vehicle
          Equipment for
   31      Reality Based             Yes            Equipment              5,182
           Training
          Spring WCPOA             Yes, but
   32                                                Training              2,000
           Conference            unsupported
          Rachel's Challenge
   33                                No                N/A                 4,767
           Presentation
          CSP - Managing
           Property &
   34                                Yes             Training               750
           Evidence Room
           Training
                                                             TOTAL     $759,030
Source: AFMLS and MCSO




                                           17
                                                                                              APPENDIX IV

             MESA COUNTY SHERIFF’S OFFICE
             RESPONSE TO THE DRAFT REPORT




Mesa                    Sheriff's Office
                                       215 Rice SI... 1            970·244·3500 Phone
                                       P.O.60~2O,OOO               97o.244~ Fu
                                       Grand Junction, Co. 61502   www_
                                                                      shenfl_
                                                                            ITWl$I.loOOI.In_UII




February 27, 2012

Mr. David M. Sheeran, Regional Audit Manager
U.S . Department of Justice
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, Colorado 80203

Dear Mr. Sheeran:

Enclosed is the 21 st Judicial District Seizure Board's response to the recent
Department of Justice Equitable Sharing Program audit.

We appreciated the audit process and agree with several findings. As indicated,
we have changed some of our documentation and accountability procedures to
comply with audit findings. Several of our crafted responses disagree with audit
outcomes, primarily due to definition interpretation differences. Additionally
included is documentation for several audit findings which were not available
during the audit process. We would hope that those affected areas will change
with the submission of the documentation .

Please let us know if you have questions or require additional follow-up.


Thank you.



Rebecca Spiess
Undersheriff




Enclosure: As     ted



cc: Criminal Division




                                        18

•




          (,   "
               i,
               ,




    19

      I




20

21

      ,
  I
  l   1




22

                                                              APPENDIX V

                 OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE THE REPORT

       The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the
Mesa County Sheriff’s Office (MCSO). We incorporated MCSO’s response as
Appendix IV of this final report. However, the audit recommendations are
unresolved because the Criminal Division declined to provide comments on the
draft report. The following provides the OIG analysis of MCSO’s response and
a summary of actions necessary to resolve each report recommendation.

Recommendation Number:

1.   Unresolved. The MCSO concurred with our recommendation to ensure
     that the MCSO periodically reconciles the equitable sharing funds
     requested and the corresponding amount received.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement on
     corrective action.

2.   Unresolved. The MCSO concurred with our recommendation to ensure
     it retains copies of submitted DAG-71 equitable sharing request forms.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement on
     corrective action.

3.   Unresolved. The MCSO concurred with our recommendation to ensure
     it follows the Guide to Equitable Sharing for State and Local Law
     Enforcement Agencies (Guide) to verify allowability of expenditures.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement on
     corrective action.

4.   Unresolved. The MCSO concurred with our recommendation to ensure
     it retains complete documentation to support all equitable sharing
     expenditures.


                                    23
      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement on
      corrective action.

5.    Unresolved. This recommendation can be closed when we receive
      evidence that the $64,516 9 in unallowable questioned costs has been
      remedied by the Criminal Division.

      Unallowable expenditure 1: $2,796 for courtroom equipment

      The MCSO asserted that this transaction was made to support the law
      enforcement activities of the District Attorney.

      Page 3 of the Guide provides an overview of agencies that are eligible to
      participate in the Department of Justice Equitable Sharing Program.
      Section VIII of the Guide, starting on page 16, describes allowable uses
      of equitably shared property and funds. Specifically, Section VIII, item
      A, states “Except as noted in this Guide, equitably shared funds shall be
      used by law enforcement agencies for law enforcement purposes only,”
      and Section VIII, item A.1.d, states “the costs associated with the
      purchase…of law enforcement equipment for use by law enforcement
      personnel that supports law enforcement activities” are permissible.
      MCSO records identify this equipment as “Technology – Court Room”
      and the District Attorney’s Office request to the seizure board stated the
      reason for the request as “Increasing use of technology in courtroom
      necessitates having a projector in each of the 4 District Courtrooms.”
      While the District Attorney’s office serves prosecution functions, this
      purchase was stated as intending to benefit the Court, and we therefore
      do not consider this expenditure to be for law enforcement purposes
      only. We continue to question this expenditure as unallowable under
      Equitable Sharing guidelines.

      Unallowable expenditure 2: $8,402 for a conference attended by District
      Attorney’s Office staff

      The MCSO asserted that this transaction was made to support the law
      enforcement activities of the District Attorney.

      Page 3 of the Guide provides an overview of agencies that are eligible to
      participate in the Department of Justice Equitable Sharing Program.

      9
          Based on additional information received, we have determined $4,970 for costs
previously questioned as unallowable, expenditure 3, to be allowable. Consequently, total
questioned costs for unallowable expenditures have been reduced from $69,486 to $64,516.


                                           24
Section VIII of the Guide, starting on page 16, describes allowable uses
of equitably shared property and funds. Specifically, Section VIII, item
A, states “Except as noted in this Guide, equitably shared funds shall be
used by law enforcement agencies for law enforcement purposes only”
and Section VIII, item A.1.b, allows for training of prosecutors, but also
specifies training must be “in any area that is necessary to perform
official law enforcement duties.” The invoice for this expenditure stated
that this event was the Colorado District Attorney’s Council Fall
Conference; the only mention of training is in the District Attorney’s
Office request letter for funding. MCSO officials were unable to provide
us with an agenda for the conference, including details of training
provided at the conference. Because the only external document for
this expenditure described the event as “Fall Conference,” with no
mention of training, we continue to question this expenditure as
unallowable under Equitable Sharing guidelines.

Unallowable expenditure 3: $4,970 for scanner equipment for the
District Attorney’s Office

The MCSO asserted this transaction was made to support the Law
Enforcement activities of the District Attorney. Based on additional
information received, we have determined this portion of the
recommendation can be considered an allowable expenditure.
Therefore, total questioned costs will be reduced by $4,970 for audit
resolution purposes.

Unallowable expenditure 4: $550 for Grand Jury pay for the District
Attorney’s Office

The MCSO asserted this transaction was for court recorder support, but
acknowledged that it was not permissible per the Guide.

This portion of the recommendation can be closed when we receive
documentation that the $550 in questioned costs for the unallowable
expenditure has been remedied.

Unallowable expenditure 5: $48,000 for capital improvements for the
Western Slope Center for Children

The MCSO stated its agreement that steps in the Equitable Sharing
process for this transaction were overlooked, but feels that this
expenditure is in compliance with serving law enforcement's needs.
The MCSO also contends that had the correct procedure been applied,
this transaction would stand the test of being morally, legally, and
ethically justifiable according to the Guide.


                                25
     Section VIII of the Guide, starting on page 16, describes allowable uses
     of equitably shared property and funds. Specifically, Section VIII, item
     A.1.m, states “Cash transfers to community-based programs are not
     permitted.” MCSO acknowledged that this expenditure did not meet
     Equitable Sharing guidelines. The Guide does not discuss moral, legal,
     or ethical justification for expenditures. We continue to question this
     expenditure as unallowable under Equitable Sharing guidelines.

     Unallowable expenditure 6: $4,767 for an anti-bullying program at a
     local school district

     The MCSO asserted that it actively supported this expenditure because
     of its nexus to law enforcement and strong partnership with the District
     51 school district. MCSO stated the program provided students with the
     tools to combat violent behavior and eschew bullying activities to
     minimize the likelihood of another Columbine tragedy and the need for
     law enforcement intervention. MCSO also asserted that the Guide
     allows for “drug and gang education and awareness programs, which
     MCSO interpreted to include anti-bullying awareness programs.

     Section VIII of the Guide, starting on page 16, describes allowable uses
     of equitably shared property and funds. Specifically, Section VIII, item
     A, states “Except as noted in this Guide, equitably shared funds shall be
     used by law enforcement agencies for law enforcement purposes only,”
     and Section VIII, item A.1.g, states the permissibility of “costs
     associated with conducting drug or gang education and awareness
     programs by law enforcement agencies.” In the latter section, the OIG
     interprets “awareness” as referring to drugs or gangs, rather than a
     blanket definition of programs related to awareness, which could
     encompass virtually any topic. MCSO records indicated this
     expenditure supported an anti-bullying program at a local school, which
     was conducted by a 501(c)(3) nonprofit. MCSO records also included
     concerns by seizure board members regarding the law enforcement
     aspect of this expenditure. Because this program was not related to
     drug or gang education, or drug or gang awareness, and was not
     provided by law enforcement agencies, we do not believe it to be an
     allowable expenditure per the Guide.

     However, this recommendation is unresolved because the Criminal
     Division did not respond to the draft report. This recommendation can
     be resolved once the OIG and the Criminal Division reach agreement on
     corrective action.

6.   Unresolved. This recommendation can be closed when we receive
     evidence that the $22,238 in unsupported questioned costs has been


                                     26
remedied by the Criminal Division.

Unsupported expenditure 1: $8,402 for a conference attended by
District Attorney’s Office staff

The MCSO asserted that although the names of those attending are not
in the file, there was supporting documentation submitted for all of the
expenditures, including a receipt for registration supporting 20 staff at
$200 each for a total of $4,000 for the Fall Conference and invoices for
lodging totaling $4,402 for the 20 attendees, for a total of $8,402.
MCSO stated in the future it will document all attendees' names.

MCSO documentation for this expenditure included a request from the
District Attorney’s office for funds; an invoice for the Colorado District
Attorney’s Council Fall Conference for 20 conference registrations; and
6 condominium reservations for 24 people at Keystone Resort in
16 bedrooms, all made in one name. MCSO officials were unable to
provide us with an agenda for the conference, individual registrations,
and a roster of attendees, and we therefore consider this expenditure to
be unsupported. This part of the unsupported expenditures
recommendation can be closed when we receive adequate supporting
documentation.

Unsupported expenditure 2: $292 related to per diem expenses for a law
enforcement exchange program with Romanian Law Enforcement
officers

The MCSO asserted that it agreed with this finding, and stated in the
future no expenditure will be paid without supporting documentation.

This part of the unsupported expenditures recommendation can be
closed when we receive documentation that the $292 in questioned
costs for the unsupported expenditure has been remedied.

Unsupported expenditure 3: $5,664 for a police academy scholarship

The MCSO asserted that this transaction was considered a questioned
cost because of the lack of an application and invoice. MCSO stated it
contacted the academy again and obtained a signed copy of Recipient
A’s application to the police academy. MCSO provided a tuition invoice
for Spring 2010 (dated June 2010); a college application dated
November 2009; and a residency form, approved by the school in
January 2010 as documentation for the scholarship recipient.

However, we noted during fieldwork that the documentation for this
expenditure appeared to be a duplicate of an earlier scholarship


                                27
application for another individual, Recipient B. We previously reviewed
Recipient B’s scholarship application during transaction testing, and we
considered that application to adequately support that expenditure,
which was for the Fall 2009 academy and was originally dated July 2009.
MCSO’s scholarship award documentation for Recipient A consisted
solely of a printout of an email from Recipient B’s scholarship application,
on which Recipient A’s name, “$5,664.60,” and “5/31/10” were
handwritten.      We received no other documentation of Recipient A’s
application for the scholarship or of MCSO approval of the scholarship.

The documentation for this questioned expenditure also included two
emails involving Mesa State College and MCSO. Those emails were
dated June 1, 2010, and June 2, 2010, and discussed an invoice and
scholarship for Recipient A, who had graduated in May, and stated
uncertainty regarding the recipient and whether payment had been
issued and to whom. During fieldwork, we also reviewed a description
of the Peace Officer Academy provided to MCSO by Mesa State College,
which listed three seizure board scholarship recipients for Fall 2009, Fall
2010, and Spring 2011; Recipient B, Recipient C, and Recipient D were
specifically listed by name, but Recipient A was not listed by the school
as a recipient of the seizure board scholarship. This part of the
unsupported expenditures recommendation can be closed when we
receive documentation of Recipient A’s application for the seizure board
scholarship.

Unsupported expenditure 4: $5,879 for a police academy scholarship

The MCSO concurred that this transaction was considered a questioned
cost because of the lack of an application and invoice. MCSO stated it
contacted the academy again and obtained a signed copy of the
application. MCSO provided an invoice and a college application as
documentation for the scholarship recipient.

In response to the draft audit report, the MCSO provided us with
additional documentation related to a scholarship awarded to Recipient
C, including an online application for Recipient C to an unknown school,
dated November 2005, and personal background information that
appeared to be an attachment to that application. We noted during
fieldwork that the expenditure documentation included a seizure board
disbursement request form for a post scholarship for Recipient C; a
tuition invoice for Recipient C for Fall 2010, dated September 15, 2010;
and a description from Mesa State College of the seizure board
scholarship program for the Peace Officers Academy. The seizure board
disbursement request form did not include a scholarship application for
Recipient C; during transaction testing for an earlier scholarship


                                 28
awarded to Recipient B, we verified that a formal scholarship application
form was used. This part of the unsupported expenditures
recommendation can be closed when we receive documentation of
Recipient C’s application for the seizure board scholarship.

Unsupported expenditure 5: $2,000 for a law enforcement conference

The MCSO asserted that an agenda from the conference was submitted
as documentation, and that $1,700 was returned by the Association for
services not provided. The MCSO stated that in the future it will include
the registration for each attendee.

During fieldwork, we identified two unsupported expenditures for
WCPOA Conferences; $2,000 was paid on May 31, 2010 and $1,700 was
paid on November 1, 2010. On September 13, 2011, the MCSO notified
us that a check was provided to MCSO for $1,700 as a refund for the
November 2010 WCPOA Conference expenditure; we were provided with
a copy of that check. The MCSO also notified us that the registrations
and attendee roster related to the May 2010 expenditure had been
destroyed. While we were able to review an agenda for the Spring 2010
WCPOA Conference, we are unable to verify the expenditure without
individual registrations and a roster of attendees. This part of the
unsupported expenditures recommendation can be closed when we
receive documentation of conference attendees paid with equitable
sharing funds.

However, this recommendation is unresolved because the Criminal
Division did not respond to the draft report. This recommendation can
be resolved once the OIG and the Criminal Division reach agreement on
corrective action.




                                29
